No. 20-98
IN THE

Supreme Court of the United States
THOMAS WOOD, INDIVIDUALLY AND AS PERSONAL
REPRESENTATIVE OF THE ESTATE OF PHILIP TALMAGE
WOOD,
Petitioner,
v.
THE BOEING CO.,
Respondent.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the District of Columbia Circuit
BRIEF OF AMICI CURIAE LEGAL SCHOLARS
IN SUPPORT OF PETITIONER
CERTIFICATE OF SERVICE
I, certify, as required by U.S. Supreme Court Rule 29.5(b), that on August 31,
2020, an electronic copy of the Brief of Amici Curiae Legal Scholars in Support of
Petitioner was served on all parties required to be served, and that counsel for every
party below consented to electronic service in accordance with this Court’s Order
dated April 15, 2020.
Signed on August 31, 2020
/s/ James H. Hemphill
James H. Hemphill
Counsel for Amici Curiae Legal Scholars

Evan Andrew Young
Baker Botts, L.L.P.
98 San Jacinto Boulevard
Suite 1500
Austin, Texas 78701-4078
512.322.2506
Counsel for Petitioner, Thomas C. Wood, Individually
and as Personal Representative of the Estate of Philip
Talmadge Wood
Eric B. Wolff
Perkins Coie LLP
1201 Third Avenue
Suite 4900
Seattle, Washington 98101-3029
206.359.8000
Counsel for Respondent, The Boeing Company
Richard A. Walker
KMA Zuckert LLC
200 West Madison Street
16th Floor
Chicago, IL 60606
312.345.3051
Counsel for Malaysia Airlines Berhad, doing business
as Malaysia Airlines, Malaysian Airlines System
Berhad, Administrator Appointed, doing business as
Malaysia Airlines, Allianz Global Corporate and
Specialty, and Henning Haagen, in his capacity as
Global Head of Aviation for Allianz Global Corporate
and Specialty
Floyd Wisner
Alexandra M. Wisner
Wisner Law Firm, P.C.
514 W. State Street, Suite 200
Geneva, IL 60134
630.262.9434
Counsel for Jianjun Bao, Yuanjuan Bao, Qinping Xu,
Xia Wu, Guangzhen Ding, Rongjie Dong, Zhengquian
2

Dong, Zhengquian Dong, Zheng Wang, He Xiong,
Songrong Duan, Yi Yao, Qiang Yao, Borong Yao, Lian
Hua Hu, Jiangtian Lou, Jianghao Lou, Jiangyue Lou,
Morojahan Simanjuntak, Emma Tianwen Li, Yvonne
Tianyun Li, Danica Weeks, and Kerry Richards
Eric J. Rhine
Spagnoletti & Co.
401 Louisiana Street, 8th Floor
Houston, TX 77002
713.659.0257
Counsel for Amirathan Arupilai, Subramanian
Gurusamy, Sri Devi Kanan, Individually and on behalf
of
the
Estate
of
Descendent
Puspanathan
Subramanian, minor H. Puspanathan, and minor T.
Puspanatha
Stephen F. Rosenthal
Podhurst Orseck, P.A.
Suntrust International Center
One S.E. 3rd Avenue, Suite 2300
Miami, FL 33131
305.358.2800
Counsel for Yang Chen, Lei Feng, Jingbo Gao,
Thomas C. Gaspard, Junxiu Han, Xiufang Hu, Yan
Huang, Yiliang Jia, Sanved Kolekar, Huiyun Li, Li
Li, Qingshan Liang, Shoujie Pang, Narendran
Santhanam, Pralhad Shirath, Yang Tian, Guanyi
Wang, Le Wang, Yinglei Wang, Linna Xiao, Bei
Yuan, Pu Zhang, Yongli Zhang, and Shengnan Zhou
Mary F. Schiavo
Motley Rice LLC
28 Bridgeside Boulevard
Mt. Pleasant, SC 29464
843.216.9138
Counsel for Elizabeth Smith, Jianguo Zhang,
Huatian Hu, Jin Liu, Luyue Zhang, Zhuo Liu, H. L.,
a minor by and through his Guardian Ad Litem Zhuo
Liu, Individually, and as Representative of the Estate
of Yan Zhang, Yan Meng, Min Huang, Zhaojun
3

Zhang, Shusen Yan, Xiyun Tian, Man Zhang, Jia
Zhang, Shu Zhang, Dacai Gan, Yurong Lin, Q. G., a
minor by and through her Guardian Ad Litem as
Representative of the Estate of Tao Gan, Mingfei Ma,
Yiming Li, Zhaoxia Sheng, Yongfu Gao, Guohui
Wang, Peng Li, Y. L., a minor by and through her
Guardian Ad Litem Yongfu Gao, as Representative of
the Estate of Zhi Li, Xinmin Lin, Yan Lin, Teng Ma,
Xiushen Ma, Guifen Song, Xiurong Yang, Zhu Mao,
M. Y. L., a minor, by and through her Guardian Ad
Litem Zhu Mao as Representative of the Estate of
Tugui Mao, Fan Yang, Qingyuan Yang, Yupei Feng,
Zan Wang, Liping Wang, Xiuqin Yang, Mengyao
Zhou, Xueliang Zhou, Xiuying Huang, Kailai Zhou,
Shufang Li, Yalai Zhou, Shengyuan Zhao, Shiji
Zhang, Quilan Li, Z. Z., a minor, by and through her
Guardian
Ad
Litem
Shenyuan
Zhao
as
Representative of the Estate of Shaohua Zhang, Lijun
Guo, Fengxin Shi, Xingxui Pi, Y. S., a minor, by and
through his Guardian Ad Litem Lijun Guo and as
Representative of the Estate of Xianwen Shi, Jian
Jiao, Gengxin Yang, Shuying Han, Jinshi Feng,
Chengying Liu, Jiehao Feng, Chao Tian, Jinqi Tian,
Lamei Li, Shuqin Li, Yuehua Li, Ruilin Bo, Limang
Cui, T. G., a minor, by and through his Guardian Ad
Litem as Representative of the Estate of Fuxiang
Gan, Mingsong Gan, Yuzhen Gan, Qi Li, Shuping Li,
Xuezheng Li, Yinsui Li, Xueyan Ma, Min Wan, Kefei
Wang, Yuzhi Xing, Gang Yan, Nali Yu, Lixia Zhang,
Yanmin Zhang, Gregory D. Keith, As Special
Administrator of the Spouses, Next of Kin, Other
Statutory Beneficiaries, and the Estates of the
MH370 Passengers
The following email addresses have been served electronically:
evan.young@bakerbotts.com
ewolff@perkinscoie.com
caitlyn.hubbard@kellyhart.com
marianne.auld@kellyhart.com
srosenthal@podhurst.com
faw@wisner-law.com
awisner@wisner-law.com
mschiavo@motleyrice.com
4

erhine@spaglaw.com
rwalker@kmazuckert.com

5
3633959.v1

